2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

. E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com

Est. 1923,

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-123

SHARONELL FULTON, et al.,
Petitioners,
v.
CITY OF PHILADELPHIA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
LEGAL SCHOLARS IN SUPPORT OF EQUALITY IN SUPPORT OF RESPONDENTS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 7919 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 18th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

cl OO

 

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40010
